                                                 National Railroad Passenger Corporation
                                                 Office of Inspector General
                                                 10 G Street N.E.
	                                               Washington, DC 20002




                                  THEFT OF FUNDS
                                    MAY 6, 2014
                                 CASE OIG-I-2014-505

Our investigation disclosed that an Amtrak cashier pocketed some cash deposits. This
cashier was responsible for reconciling cash deposits from lead service attendants upon
completion of their run. This employee was sporadically absent from work and resigned
when asked to take a drug test. After being arrested, the employee pled guilty and was
sentenced to a 180 day suspended sentence, 3 years of probation, and also was
ordered to pay $10,871 in restitution.
